Appendix A

United States v. Dussarcl, 967 F.3d X49 (2020)

Attorneys end Law Firms
96~ F.3d i49
United States Court of Appeals, Second Circuit.

KiM6ERLY J. RAVENER, Assistant United States Attorney,

UNITED STATES of America, Appellee,

New York, New York (Geoffrey S. Berman, United States
Attorney for the Southern District of New York, Sagar Ravi,

V.

Karl Metzner, Assistant United States Attorneys, New York,

Neil DUSSARD, Defendant-Appellant,
Louis Knight, David Pierre,
Ricardy Louissant, Kareem

New York, on the briefl, for Appellee.
DEVIN McLAtJGHLIN, Middlebury, Vermont (Langrock
Sperry &Wool, Middlebury, Vei7nont, on the briefl, for
Defendant-Appellant.

Abdul Mathis, Defendants.
Docket No. 18-804
August Term, 2019

Before: I~EARS~, JACOBS, and CABRANES, Circuit
Judges.
Opinioif
KEARSE, Circuit Judge:

Argued: May i4, 2020
Decided: July 23, 2020

Defendant Neil Dussard appeals from a March 15, 2018
judgment entered in the United States District Court for the
Southen~ District of New York after his plea of guilty before

Synopsis
Background: Defendant pleaded guilty in the United States
District Court for the Southern District of New York,
George B. Daniels, J., to conspiracy to commit Hobbs Act
robbery and possession of firearm in furtherance of narcotics
conspiracy. Defendant appealed.

Holdings: The Court of Appeals, Kearse, Senior Circuit
Judge, held that:
Hobbs Act robbery conspiracy did not qualify as crime of
violence, and
defendant's substantial rights were not affected by his
erroneous conviction for possession of Eireann in furtherance
of crime of violence based on Hobbs Act robbery conspiracy.

George B. Daniels, Judge, convicting him of "[c]onspiracy
to commit Hobbs Act robbery" in violation of 18 U.S.C. §
1951 (Count One)and "[p]ossession of Eireann in furtherance
of narcotics conspiracy" in violation of 18 U.S.C. ~ 924(c)
(1)(A)(i)(Count Three), Judgment at 1, and sentencing him
principally to 24 months' imprisonment on the conspiracy
count, to be followed by 60 months' imprisonment on the
Eireann count. On appeal, Dussard, who did not raise any
claims of error in the district court, contends that on Count
Three, in accordance with his plea agreement, he in fact
pleaded guilty to possession of a firearm in furtherance of
a crime of violence; that in light of the decisions in U»itecf
States a Davis,
U.S.
139 S. Ct. 2319, 204 L. Ed.
2d 757 (2019), and Uititecl States a Bari-ett, 937 F.3d 126
(2d Cir. 2019), a Hobbs Act conspiracy is not a crime of
violence within the meaning of ti 924(c)(I)(A}(i); and that
his conviction on Count Three must therefore be vacated as
unconstitutional. Reviewing Dussard's challenge to his Count
Three conviction under the plain-error standard, we conclude

Affirmed.

that, in the circtinnstances of this case, the errors did not affect
Dussard's substantial rights, and we affirm.

*151 Appeal fi-oin the United States District Court for the
Southern District of New York after a plea of guilty before
George B. Daniels, Jzrdge

I. BACKGROUND
Dussard and four coconspirators were arrested in New York
City on September 8, 2016, while attempting to commit an
armed robbery of an individual they believed to be a narcotics

llniYed Stags v. Diassard, 96% F.3d 149 (2020)

dealer transporting 12 kilograms of cocaine. To the extent
pertinent to this appeal, Dussard was indicted on three counts.
Count One alleged that
[f]rom at least in or about August 2016 up to and including
on or about September 8,2016,... NEIL DUSSARD ...[and
the other named] defendants[ ]unlawfully and knowingly
did ... conspire ... and agree together and with each other to
commit robbery, as that term is defined in Title 18, United
States Code, Section 1951(b)(1), ... to wit, ... to commit
the armed robbery of an individual *152 believed to be a
narcotics dealer ....
(Title 1 ~, Uiuted States Code, Sectio» 1951.)
(Indictment ¶ 1.) Cotmt Two alleged that in the same period,
NEIL DUSSARD ... and others known and unknown,
intentionally and knowingly did .., conspire ... together and
with each other to violate the narcotics laws of the United
States.
3. It was a part and an object of the conspiracy that ...
NEIL DUSSARD ... and others known and unknown,
would ... distribute and possess with the intent to distribute
a controlled substance, in violation of Title 21, United
Stites Cocle, Section 841(x)(1}.
4. The controlled substance that ... NEIL DUSSARD ...
conspired to distribute and possess with the intent to
distribute was five lzilograms arzd more of mixtures c~rzd
substances containing a detectable afnoa~nt ofcocaane, in
violation of Title 21, United States Code, Section 84~1(b)
(1)(~)•
(TiTfe 21, United States Code, Section 846.)
(indictment ~~¶ 2-4 (emphasis added).) Count Three alleged
that on or about September 8, 2016, along with his
codefendants,
NEIL DUSSARD ... dtiiring and ii2 relafiai to a c~•ime
of viole~~ce for which they inay be prosecuted in a couz-t
of the United States, namely, the robbery conspiracy
charged i~z Count O~2e of this h~.dicbn~e~zt, aizd durt~no cz~zd
irz relation to ca drag tr•affictiing crime for which they may
be prosecuted in a court of the United States, f2.amely,
the rzaf-cotics conspiracy cl2ajged i~z Cou~zt Two of this
Indictment, knowingly did use and ca1•ry a Eireann, and, in
furtherance of such crime, did possess a Eireann, and dicl
aid anal abet t6ae i~se, carryiiag, n~zc1 possessioia ofaTrearna,
to wit, three pistols.

(Title 18, United States Code, Sections 924(c)(1)(A)(i) and
2~~
(Indictment ¶ 5(emphases added).)

I. Tl2e Plea Agree~nerit
On May 16, 2017, Dussard entered into a plea agreement
with the government ("Plea Agreement' or "Agreement')
pursuant to which he would plead guilty to "Cotmts One and
Tlu-ee," which were described as follows:
Count One charges the defendant with conspi~~acy to
commit Hobbs Act Yobber}~ from at least in or about August
2016, up to and including on oz• about September 8, ?016,
in violation of 1 g U.S.C. § 1951....
Count Three charges the defendant with using and carrying
a Eireann during and in relation to a crime of violence,
to wit, the Hobbs Act r~obbe~y charged in Count One of
the Indichnent, in violation of Title 18, United States
Code, Section 924(c)(1)(A)(i). Coz~nt Three caries a
maximum term ofimprisonment oflife;[and] cz rnandatoYy
)921121791 21192 lL'J"194 Of 1192~Y1S'012T92G'32t OffVB VL'QYS, W~1lCj2 772L1S1

run consecutive to a~zy other sentence imposed ....
(Plea Agreement at 1 (emphases added).)
In the Agreement, the government agreed that "[i]n
consideration of the defendant's plea to the above offense,"
it would not prosecute Dussard further on Counts One and
Three as described in the Agreement (id. at 1-2), and that
"at the time of sentencing, the Govennnent will move to
dismiss any open Counts against the defendant"(id. at 2). The
Agreement also stated, ii~.ter alia, that
slaoulc~ tJ2e coi~victio~z following t11e defendant's plea of
guilty pursuant to this Agreement be vacated for any
reason, x153 then anyp~~osecution that is not time-barred
by the applicable statute of limitations on the date of the
signing of this Agreement (inchaclii~g a~~y cour2ts that the
Goverfanaent has aor~eed to clisniiss at sentencif~g pursz~ant
to thas AgYeei~zent) ma1~ be con~.naei~~ced or reinstated agai~~st
the defendar2t, notwithstanding the expiration of the statute
of limitations between the signing of this Agreement and
the commencement or reinstatement of such prosecution.
(Plea Agreement at 6(emphases added).)

2. The Plea He~iri»g
Dussard's plea hearing was held on July 25,2017. The district
court confirmed that Dussard had understood and sibned file

United States v. Dussard, 967 F.3d 149 (2020)

Plea Agreement (see, e.g., Plea Hearing Transcript, July 25,
2017 ("Plea Tr."), at 11) and that he "wish[ed] to plead guilty
to Count One and CoLmt Tlu-ee of th[e~ indictment" (id.

government asked flee court to impose a sentence for Count
One within the Guidelines range.

at 4). The court described Count One of the Indictment as

Dussard urged the court to impose no prison time for Count

"charg[ing Dussard] with conspi~~c~cy to commit what we refer
to as a Hobbs Act robbery," and described Count Three as

One and sentence him to 60 months,the minimum permissiUle

"charg[ing Dussard] with using and can-ying a Eireann during
and in relation to a crime of violence, to wit, that Hobbs Act
robbery."(Id. at 7(emphases added).)
The court asked Dussai-d what he had done that made him
guilty of those two offenses. Dussard responded as follows:
On approxiulately August 2016 to September 8, 2016, I
conspired with individuals who possessed firearms in order

for Count Three. His attorney stated that Dussard
is extremely remorseful for his participation in this crime.
He instructed me *154 last year to reach out to the
government and iufonn theirs of his intent to accept
responsibility for his conduct and spare the government any
additional resources in the prosecution of his case.
(Sentencing Transcript, March 15, 2018, at 9.) The attorney
argued that Dussard was in Guidelines criminal history

to steal narcotics at gun point from people we believed were

category I, and that he had suffered momentary weakness,
yielding to temptation when the CS held out the prospect of

drug dealers transporting narcotics. At the time 7 committed
the offense I knew what I was doing was wrong.

experience, would fetch $30,000-$40,000 per kilogram (id, at

(.Id. at 13.) Determining that Dussard was pleading guilty
knowingly and vohu~tarily, the court accepted Dussard's plea
of guilty "because you've acknowledged that you are guilty
as charged in Count One c~nd Count Three ofthis indictment,"
and "because your plea .., is supported by facts containing
each of the essential elements of those offenses." (Icy. at 14
(emphasis added).)

getting "15 to 20 kilos of cocaine," which, in the attorney's
11).
After hearing a brief statement from Dussard, who stated
principally that lie "accept[ed] full responsibility" for his
role, and for the "really bad decision" he had made because
he was "in a vulnerable state" (id. at 13), the district court
sentenced Dussard to a term of 24 months' imprisonment
on Count One, to be followed by the mandatory minimum

3. The Sei~teizcing Hearing
The presentence report ("PSR") prepared for Dussard's
sentencing described leis involvement in the conspiracy. It
noted that the coconspirators' plan was to rob aiz individual

consecutive sentence of 60 months' imprisonment oii Count
Three. On motion ofthe government, the court then dismissed
the remaining counts of the Indictment.

they believed was a dxlig dealer. Dussard was to, and did,
supply two cars; lie was in one of them when the arrests
were made as the coconspirators approached their target. In

4. TITe Judgment

preparatory conversations in which Dussard participated-which the government had recorded by a confidential source
("CS")--the coconspirators discussed their understanding that

One. But it en~oneously stated that Dussard's conviction on
Count Three was for "~p]ossession of firearm in furtherance

the targeted drug dealer would be carrying some 12 kilograms
of cocaine. One of the coconspirators said he had lined up

Judgment was entered on March 15, 2018. It correctly stated
that Dussard was guilty of Hobbs Act conspiracy on Count

of narcotics conspiracy." Judgment at i.There was no motion
to correct the judgment.

buyers for the cocaine.
5. TI2e Course ofthe Prese~~~t Appeal
At the sentencing hearing, neither Dussard nor his trial
attorney objected to the factual findings ofthe PSR. The court
adopted those findings.

Dussard timely appealed. IIowever, his appellate attorney
filed a brief pursuant to ,1~zcfe~~s a California, 386 U.S. 738,
87 S. Ct. 1396, 18 I,. Fd. 2d 493 (1967) ("A~zc~ers Brief'),
moving to withdraw as counsel and stating that there were
no nonfrivolous issues for appeal except one that "[i]t would

The court accepted the calculation in the Plea Agreement
and the PSR that under tl~e advisory Sentencing Guidelines
the recommended range of imprisomnent for Count One
was 41-51 months, and that the mandatory miilimunl teen

not be in Mi•. Dussard's best interest to pursue" (Arader-s
Brief dated August 21, 2018, at 14). Counsel stated fllat "Mr.

of imprisonment for Count Three was 60 months. The

to the Count Three gun charge, because the predicate crime

Dussard does have anon-fi•ivolous basis to challenge his plea

United States v. Dssssard, 967 F.3d '949 (2020)

he plead to of conspiracy to commit Hobbs Act Robbery
is not a `crime of violence' for purposes of 14 U.S.C. §
924(c)(3)"--alluding to the reasoning ofSesszo~z,s v. Di~n~a~-a,

Mr. Dussard received a total sentence of 84 months. If
the govei-~Iment is pernzitted to seek reindictuzent if Mr.

---- U.S. -------, 138 S. Ct. 1204, 200 L. Ed. 2d 549 (2018)
(finding "crime of violence" definition in 14 U.S.C. ~ 16(b)

Dussard is "successful" in challenging the constitutionality
of his Count Three conviction, then Mr. Dussard would be

unconstitutionally vague).(Antlers Brief at 14-15.)

"rewarded" by facing a mandatory minimtun sentence of
180 months if reindicted on Counts Two and Three.

However, counsel stated that if Dussard succeeded in
an unacceptable risk of adverse consequences," because "[a]

(Dussard supplemental brief on appeal at 1.) Dussard stated
that if we determined that the government could so reindict

successful challenge has no reasonable prospect of getting

him, he would like to be allowed to withdraw his appeal.(See

Mr. Dussard a better sentence, and carries a significant

id. at 2.)

withdrawing his plea of guilty to Count Three, he "would run

risk of re-exposing Mr. Dussard to a mandatory minimum
15 years of imprisonment," snore than twice the 84-month
sentence he received. (Icl. at 15.) Counsel pointed out that
the government's agreement to dismiss Count Two gave
Dussard a "substantial benefit" because it eliminated his
exposw~e to a mandatory minimum sentence of 10 years'
imprisonment under 21 U.S.C.~~ 441(b)(1)(A)--a term to

7n a summary order dated May 20, 2020, we declined to
grant Dussard's request for an advisory opinion as to the
government's power to reindict Dussard on Counts Two and
Three. We allowed him athree-week period in which to
decide whether he wished to withdraw the present appeal. See

which the Count Three mandatory five-year term would have
been consecutive.(~Inders Brief at 19-20.)

UJ~ited States v. Dtcssarcl, g05 F. App'x 69 (2d Cir. 2020).
Dussard thereafter informed dle Court that he wishes to
proceed with this appeal.

Iiz Juue 2019, while tl~e appeal and tl~e ;1~~ders motion were
pending, the Supreme Court decided U~~rtecl States v. Davr's,

II. DISCUSSION

139 S. Ct. 2319, 204 L.Ed.2d 757 (2019),
U.S.
ruling that the residual definition of crime of violence in §
924(c)(3}(B) is unconstitutionally vague, see 1 ~9 S. Ct. aY
2336. Counsel thereafter successfully moved to withdraw his

In pursuit of his appeal, Dussard acknowledges that he made
no challenge to his Count Three conviction in the district
court; he contends that he is entitled to relief on plain-error

Aiade~~•,s• notion.

review. We cannot conclude that he meets the criteria for such
relief.

Following this Court's decision in *155 Unrted Staler v.
Barrett, 937 F.3d 126 (2d Cir. 20'19) ("Bcn-Ye-tt"), which
held that Dczti~i.s "precludes" a conclusion "that [a] Hobbs
Act robbery conspiracy crime qualifies as a ~ 924(c) crime
of violence," icl. at 127, Dussai•d filed his opening brief
on appeal, arguing that his conviction on Count Three is
unconstitutional under Dai~i.s and must be vacated.
Two inoilths later', Dussard followed with a supplemental
brief, seeking a preliininai-y decision by this Court as to
whether--if his Count Three conviction were to be vacated--

A party may preserve a claim ofei~•or for review on appeal"by
informing the court--when the court ruling or order is made
or sought--of the action the party wishes the court to tale,
or the party's objection to the court's action and the grounds
for that objection." Fcd. R. Crim. P. 51(b). Such an objection
may be lodged for the purpose of preserving it for appellate
review even where it appears to be foreclosed by existing
precedent. An en-or that has not been preserved by timely
objection znay be reviewed on appeal if it is "[a] plain error
that affects substantial rights." Fed. R. G~im. P. 52(b).

the goveniment would be permitted to reindict hiin on the
charges that were dismissed pursuant to the Plea Agreement.
He argued that any remand should be limited to his

The requirements for obtaining relief on plain-error review
are well established. Under Rule 52(b),

resentencing on the undisturbed Count One, and that the
govei-~~ment should not be permitted to pursue the dismissed
charges, for they would subject Dussard to a much more
severe penalty than he had received:

"before an appellate court can con-ect an ei-~~or not raised
[in the district court], there must be (1) `error,' (2) that is
`plain,' and(3)that `affect[s] substantial rights.' If all three
conditions are met, an appellate court may then exercise
its discretion to notice a forfeited error, but only if(4) the

United Sates v. Dussard, 967 F.3d 949 (2020)

error `seriously affects] tl~e fairness, integrity, or public
reputation ofjudicial proceedings.'"
U~aited St~ate,s a G~-oysnicr,n, 766 F.3d 147, 155 (2d Cir. 2014)

("in assessing whether the error' affects substantial rights, the
record as a whole becomes relevant").

("Ur~~~.s~ncu~~") (quoting Johnson a United States, 520 U.S.
46l,46C>-67, 117 S. Ct. 1544, 1 i7 L. Ed. 2d 718(I 997)(which

Dussard has not met his burden of showing that his plea
of guilty on Count Three adversely affected his substantial
rights, given the record as a whole. We consider, inte~~ alia,
the following aspects of the record:

was quoting k156 United States a Ola~zo, 507 U.S. 725,732,
113 S. Lt. 1770, 123 L. Ed. 2d 508 (1993))). The burden is on
the appellant to meet this standard. See, e.g., United States v.
Domi~~gue~ Benitez, 542 U.S. 74, ~2, 12 4 S. Ct. 2333, 159 L.
Ed. 2d 157 ('2004); Gro~~snicrn, 7E6 F.3d at I55.
The first two parts of the plain-en~or analysis are easily
satisfied here. The government concedes, as it must in light
of Dcivis aild 13ai•r•et~t, that Dussard's conviction on Count
Three on the basis of~reann possession during and in relation
to a Hobbs Act conspiracy is error. Davis "precludes" a
conclusion "that [a~ Hobbs Act robbery conspiracy crime
qualifies as a S 924(c) crime of violence." I3n~~rett, 937 F.3d
at 127. The fact that Davis had not been decided at the
time Dussard entered his plea is of no consequence; an error
is "plain" within the meaning of Rulc 52(b) if the en•or is
established at the tune of the appeal. See, e.g., Hendefson v.
Ur~itecl Stcrtcs, 568 U.S. 266, 279, 133 S. Ct. 1121, 185 L. Ed.
2d 85 (2013)(" `it is enough that an error be "plain" at the
time of appellate consideration' for `[t]he second part of the
[four-part] Olcrr~o test [to be] satisfied.'"(quoting Jol~~z.sora,
X20 U.S. at 468, 117 S. C:t. 1544)); Ur~itec~.States v. Bcrlde, 943
~.3d 73, 97 (2d C'ir. 2019).

• Dussard's facnlal statement under oath at his plea hearing
(see Plea Tr. 13 ("I conspired with individuals who
possessed firearms in order to steal narcotics at gun point
from people we believed were dilig dealers transporting
narcotics"));
• the PSR's factual descriptions of the coconspirators' plan
to steal 12 kilograms of cocaine from the targeted drug
dealer, having lined up buyers to whom to sell it;
• the fact that neither in advance of the sentencing hearing
nor when expressly asked at that hearing whether he had
any objections to the PSR did Dussard or leis attoi7ley object
to any of the PSR's descriptions of the events;
• the fact that Count Two of the Indictment alleged that
the charged drug trafficking conspiracy involved more than
five kilograms of cocaine, in violation of 21 U.S.C. §y
841(x)(1), 841(b)(1)(A), and 846, which exposed Dussard
to a mandatory minimum prison *157 tei7n of 10 years,
See icy. ~ 841(b)(I)(A), on that count alone;

We cannot conclude, however, that the en•or affected
Dussard's substantial rights. An error affects the defendant's
substantial rights when it is prejudicial--that is, when there is

• Dussard's expression, in his own words and through
his attorney, of his contrition and his desire to spare the

a "reasonable probability" that the en-or affected the outcome

I.3. above);

ofthe proceeding. Do»~~n~gz~ezl3e~aile~, 542 U.S. at 81-82, 124
S. Ct. 2~3~ (internal quotation marks omitted). In a case such
as this, in which the outcome was a conviction based on a plea
of guilty, the appellant must show that there is a reasonaUle
probability that, but for the error, he would not have pleaded
guilty. See, e.g., i~t. at 76, 124 S. Ct. 2333.
In assessing this plain-error factor, we review the record
as a ~~~hole. See, e.g., Ur~rtecl States v. Vola~z, 535 U.S. 55,
59, 122 S. Ct. 1043, 152 L. Ed. 2d 90 (2002)(a defendant
who failed to object to a Rule 11 error in acceptance of his

government and himselffrom further proceedings(see Part

• the fact that Count Three of the Indictment alleged
firearm possession both "during and in relation to a crime
of violence ..., namely, the robbery conspiracy charged
in Count One of this Indictment, a~~.d clur~iizg aiad in
relation to a d~~ug t~~afficlzing c~-ime ..., Jaa~nely, the i2czrcotics
conspiracy charged in Cozurt Two of dais Ir~dictnzent
(Indictment ¶ 5 (emphases added)); and
• the demonstrated willingness of both the goven~ment
and Dussard to have all charges against him resolved

plea of guilty "has the burden to satisfy the plain-en-or rule
and ... a reviewing court may consult the whole record when

by means of a plea agreement pursuant to which he
would plead guilty to a~~' ~24(c)(1)(A)(i) offense, with
its consecutive mandatory minimum five-year prison term,

considering the effect of any error on substantial rights");
Ur~itecl S~atc:s a Gcn~cia~, 587 I~.3d X09, 520 (2c~ Cir. 2009)

term.

plus one offense that hacl no mandatory mininnzm prison

~Inited States v. Dussard, 967 ~.3d 149 {2020)

These aspects of the record indicate, itzter alicz, that Dussard
would have had little genuine hope of being acquitted of
the Count Two drug trafficking conspiracy after a trial. The
coconspirator meetings planning the robbery of drug dealers

Act conspiracy, to have that description refer instead to the
allegation of ~reann possession "during and in relation to a
drug trafficking crime ..., namely, the narcotics conspiracy
charged in Count Two of this Indictment"(Indictment ¶ 5).

believed to be transporting narcotics were attended by one
or more confidential sources; some telephone conversations
were recorded; some meetings were surveilled by law

While Dussard argues that he did not plead guilty to Count
Three on the basis of its allegation that the firearm possession

enforcement; and pistols were seized when the coconspirators

was related to a drug trafficking crime, nothing about his
plea or the plea hearing itself provides any basis for an
argument that he was willing to plead guilty to Count Three

were an•ested as they advanced on the site of the planned
robbery. If convicted on all counts, Dussard would have Ueen
sentenced to a ~1linimum of 15 years' imprisonment. The Plea
Agreement as drafted avoided that exposure; and it could also

only if it was tied to the charge of Hobbs Act conspiracy
and that he would not have pleaded guilty to Count Three
if the Plea Agreement had referred instead to the drug

have achieved the same result validly by making a simple
reference to the Cotmt Two narcotics conspiracy as a predicate

trafficking predicate. Indeed, as it was, the language used in

drug trafficking crime i» lieu of the reference to tl~e Count
One Hobbs Act robbery conspiracy as a predicate crime of

the Plea Agreement--and in the plea hearing with respect to
Count Tl~u•ee and Dussard's plea--was hardly fastidious. The

violence.

Agreement itself, while referring to Count One as charging
Hobbs Act"conspiracy," stated that"Count Three charges the

The the-year mandatory minimum sentence provided in
924(c}(1)(A)(i) applies to firearm possession "during and in

defendant with using and carrying a Eireann during and in
relation to a crime of violence, to wit, tl~e Hobbs Act robbery
charged in Count One" (Plea Agreement at 1 (emphasis

relation to" either a "crime of violence or ~aJ drug trafficki»g
crime" (emphasis added). Count Three of tl~e Indictment
alleged both of these predicates. Further, the applicability
of § 924(c)(1)(A)(i) "does not requi~~e the defe~zcfai~~t to be
convicted of~(or even charged with) the pr~eclicate cy~in~t.e, so
long as there is legally sufficient proof that the predicate
cringe was, in fact, committed." Jolrr~son v. United States,

added)). The omission of reference to conspiracy when
describing Count Three was perpetuated in the plea hearing
when the court described Colmt Tlu•ee of the Indictment as
"charg[ing] you with using and carrying a firearm during and
in relation to a crime of violence, to wit, that Hobbs Act
~-obbe~y" (Plea Tr. 7 (emphasis added)). And after listening

ample predicate for a conviction under ~ 924(c)(1)(A)(i) on

to Dussard state that lie had "conspired with individuals
who possessed firearms in order to steal narcotics at gun
point from people we believed were drug dealers transporting

the basis offii-earn~ possession during and in relation to a drug
trafficking crime. It included Dussard's sworn admission that

narcotics" (id. at 13), the court accepted his plea without
refen•ing to the Plea Agreement's limited focus on the crime of

he knowingly participated in a conspiracy "to steal narcotics
at gun point from people we believed were drug dealers

violence segment of Count Three, stating simply that "you've

779 F.3d 125, 129-30 (2d Cir. 2015)(emphasis added). The
above description of the evidence as to the events provided an

transporting narcotics" (Plea Tr. 13); and Dussard did not
contest the PSR descriptions of meetings he attended with
other• coconspirators at which (a) it was discussed that the
targeted drug dealers would be transporting 12 kilograms
of cocaine--a quantity inconsistent with any notion that the

acknowledged that you are guilty as charged in Count One
and Count Three of this indictment" (id, at 14 (emphasis
added)). There was no objection or request to specify that
Dussard's acknowledgement was limited to the crime-ofviolence allegation in Count Three.

coconspirators intended to steal the drugs for their own
personal use--and (b) a coconspirator stated that he already

Plainly, Dlissard was motivated--and the government was
willing--to enter into a plea agreement that would allow

had buyers lined up for the cocaine they would steal.

him to plead guilty to a 5 924(c)(1){A)(i) offense, with its
mandatory minimum consecutive five-year prison term, plus

Thus, if Dussard and the government had anticipated the
D«vi.t~ decision making the predication of Count Tlu-ee on
the Hobbs Act conspiracy invalid, they could have avoided

an offense that lead no mandatory minimum prison term. Had
he and the government anticipated tl~e decision in Davis, this

the invalidity in Dussard's Cotint Three plea of guilty just by
changii7g the two lines ofthe Agreement's Cowlt *158 Three
description that referred to a crime of violence and Hobbs

could easily have been accomplished--with no differencern
the offense of conviction or in the punishment--by simply
having the two lines of the Agreement describing Dussard's
Count Three agreed-upon plea refer not to a crime of violence

'JniYed States v. ~ussard, 967 F.3d 149 {2020)

but refer instead to the drug trafficking crime that was also
alleged as a ~ 924(c)(1)(A)(i) predicate in Count Three.
Dussard has pointed to nothing in the record to indicate that
he would not have agreed to that language. Indeed, it would
have resulted in precisely the same judgment on Count Three
that was in fact entered, mistakenly, which he has made no
effort to correct.

the stated crime-of-violence predicate for that offense,
affected his substantial rights. Given his demonstrated
willingness to plead guilty to Count Three in order to gain
dismissal of Count *159 Two and avoid its mandatory
minimum 10-year term of imprisonment, he has not shown
any reasonable probability that he would not have pleaded
guilty to Count Three in order to secure that beneficial result
based on the permissible drug-trafficking-crime predicate
alleged in Count Three.
The judgmenT is affirmed.

CONCLUSION
For the reasons stated aUove, we conclude that Dussard has
not shown that the ei7~or in his conviction on Cowit Three,
made plain by the decisions in Davis and Barrett invalidating
__
,~r~ :>~ i~o~;~.,r;~er~:

All Citations
967 F.3d 149
___
__.
___
_
;r:~ ~%0?_0 T~~7omsc~7 ~eut~~-s. [v~ ci~im to .~riginral tl.S.
~~ovarnn~ent W'rrks.

Appendix B

Case 18-~~a,~Document 138, 09/OSJ2t}20, 2925~:~:5, P~ge1 ofi 7

UNITED STATES CQURT OF APPEALS
FQR THE

SECQND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall iJnited States Courthouse, 40 Foley Square, in the City of New York, on the
Stn day of September, two thousand twenty.

United States of America,
Appellee,
~'

ORDER

Louis Knight, David Pierre, Ricardy Louissant, Kareem
Abdul Mathis,

Docket No: 18-804

Defendants,
Neil Dussard,
Defendant -Appellant.

Appellant, Neil Dussard, filed a petition for panel rehearing, or, in the alternative, for
rehearing en Banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en Banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

~Y

~

~.
..
;.~ ,~...
vw'~

I~
~ t

